1a
APPENDIX A
[PUBLISH]

IN THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
[filed January 10, 2020]
No. 17-12948
Non-Argument Calendar
_______________________

D.C. Docket No. 1:16-cv-02582-RWS
_______________________

RICHARD JORDAN,
RICKY CHASE,
Plaintiffs-Appellants,
versus
COMMISSIONER, MISSISSIPPI DEPARTMENT
OF CORRECTIONS,
Defendant,
GEORGIA DEPARTMENT OF CORRECTIONS,
Movant-Appellee.
_______________________

Appeal from the United States District Court
for the Northern District of Georgia
_______________________

(January 10, 2020)

_______________________

Before WILLIAM PRYOR, TJOFLAT, and JULIE
CARNES, Circuit Judges.
ON PETITION FOR REHEARING

2a
JULIE CARNES, Circuit Judge:
We vacate and reconsider our original opinion in
this matter, reported at 908 F.3d 1259. We substitute
in its place the following opinion.
Plaintiffs Richard Jordan and Ricky Chase, Mississippi death row inmates, served the Georgia Department of Corrections (“GDC”) with a subpoena directing the GDC to testify at a Rule 30(b)(6) deposition
and to produce documents concerning Georgia’s lethal
injection protocol. Plaintiffs argued that the testimony and documents were necessary to support their
42 U.S.C. § 1983 claims pending in the Southern District of Mississippi challenging the legality of Mississippi’s lethal injection protocol. The GDC filed a motion to quash in the Northern District of Georgia,
where compliance with the subpoena was required,
arguing that disclosure of this information was barred
by the Georgia Lethal Injection Secrecy Act.1 Accepting the recommendation of a magistrate judge, the
1 In pertinent part, the subpoena demands that the GDC produce
documents concerning: (1) the GDC’s attempt to secure or purchase pentobarbital for use in executions, (2) drug labels and
package inserts for any drug purchased by the GDC for use in
lethal injection executions, (3) the process by which the GDC
decided to use a single lethal dose of barbiturate in its lethal injection protocol, including communications between any GDC officer and any other person or entity related to that process, (4)
the GDC’s use of compounded pentobarbital in executions, including communications between the GDC and any other person or
entity (including pharmaceutical companies, pharmacies, and
other corrections departments) related to the compounding of
pentobarbital, (5) any GDC employee trainings on conducting lethal injections, including the names and qualifications of the
person who taught at the training, and (6) communications between the GDC and any other corrections department or attorney

3a
district court granted the motion to quash. Plaintiffs
appeal, arguing that the district court did not apply
the correct standard of review to the magistrate
judge’s ruling, and that the motion to quash should
have been denied on the merits. After careful review,
we affirm.
PROCEDURAL BACKGROUND
This appeal is an offshoot of a § 1983 action filed
by Plaintiffs in the Southern District of Mississippi.
Plaintiffs are Mississippi death row inmates who challenge the constitutionality of Mississippi’s lethal injection protocol.
Mississippi’s protocol recently was changed from a
single injection procedure using only sodium pentothal or pentobarbital to a three-drug procedure that
requires the serial injection of: (1) either compounded
pentobarbital or midazolam (a sedative/anesthetic),
(2) vecuronium bromide (a paralytic), and (3) potassium chloride (which stops the heart). According to
Plaintiffs, there is a substantial risk that neither compounded pentobarbital nor midazolam—the first drug
in the series—will sufficiently anesthetize the condemned inmate. Consequently, Plaintiffs claim, an inmate who is injected with either drug could remain
conscious and fully sensate and thus experience suffocation when the second drug in the series—the paralytic vecuronium bromide, which renders the inmate
unable to breathe—is administered. Making matters
general’s office related to the selection, purchase, or exchange of
drugs for use in lethal injections. Responding to any of these demands would require disclosure of the identity of people and entities that manufacture or supply drugs used in Georgia executions, and that otherwise participate in Georgia executions, in violation of the Lethal Injection Secrecy Act.

4a
worse, Plaintiffs contend, vecuronium bromide prevents all muscular movement and thus masks the
pain that potassium chloride—the third and final
drug in the series—is known to inflict in the absence
of adequate anesthesia. Plaintiffs also argue that the
use of compounded pentobarbital—in and of itself—
can be painful to the inmate because of the possibility
that the pentobarbital will be made of counterfeit ingredients or that it will be contaminated during the
compounding process. Plaintiffs argue that Mississippi’s three-drug lethal injection protocol thus creates an unacceptable risk of severe and unnecessary
suffering, in violation of the Eighth Amendment.
To prevail on their Eighth Amendment claims,
Plaintiffs must show that there is an alternative to
Mississippi’s three-drug protocol that is both “known
and available” and that significantly reduces the risk
of severe pain to the inmate. See Glossip v. Gross, 135
S. Ct. 2726, 2738 (2015). To meet that burden, Plaintiffs point to alternative lethal injection protocols used
by other states, including Georgia. The GDC has used
a one-drug protocol that requires a single injection of
compounded pentobarbital in its most recent executions. Asserting that the single- injection pentobarbital protocol might, in theory, reduce the risk of pain to
the condemned inmate, Plaintiffs contend that it is a
known and available alternative to Mississippi’s
three-drug protocol.
The Mississippi defendants2 dispute Plaintiffs’
claim that pentobarbital is available to them, asserting at various times in the underlying § 1983 action

The Mississippi defendants include the Commissioner of the
Mississippi Department of Corrections and various other state
2

5a
that they are unable to acquire pentobarbital, even in
its compounded form. For example, in their answer to
Plaintiffs’ complaint, the Mississippi defendants denied that a single-drug procedure using pentobarbital
was a feasible alternative to Mississippi’s three-drug
protocol. They subsequently filed a motion to dismiss
Plaintiffs’ § 1983 action under Glossip, citing the
sworn testimony of Mississippi Department of Corrections officials stating that they had tried, but been unable to find a source of pentobarbital. In a hearing on
the motion, the attorney for the Mississippi defendants emphasized that state corrections officials had
not been able to obtain pentobarbital for use in executions despite a diligent search.
Plaintiffs acknowledge that pentobarbital has become difficult to acquire: a fact that is no surprise to
them given that death penalty opponents have vigorously lobbied drug manufacturers to make this drug
entirely unavailable for use in American executions.
But Plaintiffs argue that it must be possible to obtain
pentobarbital in some form because a few states, like
Georgia, have found compounding pharmacies that
agree to provide pentobarbital on condition of strict
anonymity. Accordingly, trying to unmask the GDC’s
source for this drug, Plaintiffs served the GDC with
the non-party subpoena that is at issue in this appeal.
The subpoena directs the GDC to appear at a Rule
30(b)(6) deposition and to produce documents concerning the feasibility of a one-drug lethal injection protocol using pentobarbital, including specific details
about the GDC’s source and manner of acquiring pentobarbital.
officials who are involved in implementing executions in Mississippi and who have been named in Plaintiffs’ § 1983 complaint.

6a
The GDC filed a motion to quash the subpoena in
the Northern District of Georgia, arguing that the information sought in the subpoena was irrelevant to
the claims asserted in the underlying § 1983 litigation, that it was protected from disclosure by Georgia’s
Lethal Injection Secrecy Act and other privileges, and
that disclosure would impose an undue burden on the
State. The motion was referred to a magistrate judge,
who granted the motion to quash. In his written order
on the motion, the magistrate judge relied heavily on
the Lethal Injection Secrecy Act, which precludes the
disclosure of the “identifying information” of any person or entity that participates in a Georgia execution
or that supplies the drugs used by the State in executions. See O.C.G.A. § 42-5-36(d).
Plaintiffs filed objections to the magistrate judge’s
ruling, arguing that the information sought by the
subpoena was not privileged. After reviewing those
objections, the district court accepted and adopted the
magistrate judge’s decision to quash the subpoena.
First, the district court determined that the “clearly
erroneous” or “contrary to law” standard applied to its
review of the magistrate judge’s ruling because the
motion to quash was a non-dispositive pretrial matter.
The district court then concluded that the magistrate
judge’s ruling was neither clearly erroneous nor contrary to law.
Plaintiffs appeal, arguing that (1) the district court
applied the wrong standard of review to the magistrate judge’s ruling and (2) the motion to quash should
have been denied on the merits.
STANDARD OF REVIEW
We review a trial court’s ruling on a motion to
quash a subpoena “only for an abuse of discretion.” In

7a
re Hubbard, 803 F.3d 1298, 1307 (11th Cir. 2015) (citing Ariel v. Jones, 693 F.2d 1058, 1060 (11th Cir.
1982)). Thus, we will leave the district court’s ruling
on the motion “undisturbed” unless the district court
has “made a clear error of judgment, or has applied
the wrong legal standard.” Ameritas Variable Life Ins.
Co. v. Roach, 411 F.3d 1328, 1330 (11th Cir. 2005); see
also SunAmerica Corp. v. Sun Life Assurance Co. of
Canada, 77 F.3d 1325, 1333 (11th Cir. 1996) (noting
that an abuse of discretion occurs when the district
court makes “a clear error of judgment” or applies “an
incorrect legal standard” (internal quotation marks
omitted)).
DISCUSSION
I. The District Court Applied The Correct
Standard Of Review To The Magistrate
Judge’s Ruling On The Motion To Quash
As noted above, the district court reviewed the
magistrate judge’s ruling on the motion to quash under the clearly erroneous or contrary-to-law standard.
According to Plaintiffs, the district court should
have reviewed the magistrate judge’s ruling de novo,
and its failure to do so requires reversal under the
Federal Magistrate’s Act, 28 U.S.C. § 636, and Rule 72
of the Federal Rules of Civil Procedure.
The standard of review the district court was required to apply depends on whether we characterize
the GDC’s motion to quash as a dispositive or a nondispositive matter. See 28 U.S.C. § 636(b)(1). Pursuant to the Federal Magistrate’s Act, a district court reviews a magistrate judge’s ruling on non- dispositive
matters under the clearly-erroneous or contrary-tolaw standard. Id. § 636(b)(1)(A); see also Fed. R. Civ.

8a
P. 72(a) (“When a pretrial matter not dispositive of a
party’s claim or defense is referred to a magistrate
judge to hear and decide . . . [t]he district judge in the
case must consider timely objections and modify or set
aside any part of the order that is clearly erroneous or
is contrary to law.”). But if the matter is dispositive,
the district court must review any objected- to portion
of the magistrate judge’s ruling de novo. 28 U.S.C.
§ 636(b)(1).
The Federal Magistrate’s Act lists several examples of motions that qualify as dispositive matters, including motions for injunctive relief, for judgment on
the pleadings, for summary judgment, to dismiss or
quash an indictment, to suppress evidence in a criminal case, to dismiss or permit maintenance of a class
action, to dismiss for failure to state a claim, and to
involuntarily dismiss an action. Id. § 636(b)(1)(A). Unsurprisingly, a routine pretrial discovery motion, such
as the motion to quash at issue in this case, is not included in this list of dispositive motions. See In re
Comm’r’s Subpoenas, 325 F.3d 1287, 1292 n.2 (11th
Cir. 2003) (“The district court correctly observed that
the standard of review by which it reconsidered the
magistrate judge’s [order quashing subpoenas] is
‘clearly erroneous or contrary to law.’” (citing 28
U.S.C. § 636(b)(1)(A))), overruled on other grounds by
Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S.
241 (2004); Maynard v. Bd. of Regents of the Div. of
Univ. of the Fla. Dep’t of Ed., 342 F.3d 1281, 1286
(11th Cir. 2003) (characterizing a magistrate judge’s
discovery rulings as non-dispositive orders and holding that the plaintiff’s failure to object to the rulings
in the district court waived his right to appeal them).

9a
Indeed, Plaintiffs do not dispute that had the
GDC’s motion to quash been filed in the Southern District of Mississippi, where the underlying § 1983 action is pending, the motion would be considered nondispositive and a magistrate judge’s ruling on it would
be reviewed under the clearly-erroneous or contraryto-law standard. Yet, Plaintiffs argue that the magistrate judge’s ruling on the motion to quash filed in this
case should be considered dispositive—and thus reviewed under the de novo standard—because it resolves and finally disposes of the litigation between
Plaintiffs and the GDC that is pending in the Northern District of Georgia.
This argument is unpersuasive. The GDC’s motion
to quash required separate litigation between Plaintiffs and the GDC in the Northern District of Georgia
only because the place for compliance with the subpoena—and thus the proper venue for filing a motion
to quash—happened to be in the Northern District of
Georgia, not in Mississippi. See Fed. R. Civ. P. 45(c),
(d)(3). And the magistrate judge’s ruling on the motion
resulted in a final disposition of the issues raised in
the motion, permitting Plaintiffs to appeal the ruling
to this Court. See Ariel, 693 F.2d at 1059 (noting that
a litigant would have “no other means of effectively
obtaining review” of such a ruling if it were not considered final for purposes of appeal). But that does not
somehow transform into a dispositive ruling a routine
pretrial discovery motion that is ancillary to the underlying § 1983 litigation pending in the Southern
District of Mississippi.
In short, we find no reason to treat the magistrate
judge’s ruling on the GDC’s motion to quash any differently than we would treat a similar pretrial discovery motion had it been filed in the district where the

10a
underlying § 1983 action is pending: the Southern
District of Mississippi. As such, we conclude that the
district court correctly applied the clearly-erroneous
or contrary-to-law standard of review to the magistrate judge’s ruling on the motion to quash.
II. The District Court Did Not Abuse Its Discretion By Affirming The Magistrate Judge’s
Ruling To Grant The GDC’s Motion To
Quash
Having concluded that the district court applied
the correct standard of review, the only question for
this Court is whether the district court otherwise
abused its discretion—by either relying on an error of
law or committing a clear error of judgment—when it
affirmed the magistrate judge’s ruling and granted
the GDC’s motion to quash. See Ameritas Variable
Life Ins., 411 F.3d at 1330. In essence, Plaintiffs argue
on appeal that the quashing of their subpoena
amounts to the improper creation of a new federal evidentiary privilege.3 We disagree with Plaintiffs’ characterization, conclude that the district court did not
Plaintiffs also argue that the district court should have required
the GDC to submit a privilege log before granting the motion to
quash. See Fed. R. Civ. P. 45(e)(2)(A)(ii) (requiring a person
withholding subpoenaed information under a claim of privilege
to “describe the nature of the withheld documents [or] communications”). Given the primary focus of the GDC subpoena, we are
unpersuaded by Plaintiffs’ argument. The purpose of requiring a
privilege log is to “enable the parties to assess [a] claim” of privilege. Id. Here, it is apparent from the face of the subpoena that
the information sought therein falls within the plain language of
the Lethal Injection Secrecy Act. More importantly, the only information with even arguable relevance to Plaintiffs’ § 1983
claims—that is, information identifying Georgia’s source of compounded pentobarbital, which Plaintiffs argue is necessary to
show that pentobarbital is a known and available alternative to

3

11a
abuse its discretion in granting the motion to quash,
and, accordingly, we affirm the district court’s order.
A. The Relevance of the Information Sought
in the GDC Subpoena to the Pending
§ 1983 Mississippi Litigation Is Highly
Questionable
For purposes of discovery, a party may subpoena
information from a non-party to litigation, but Federal Rule of Civil Procedure 45 protects the subpoena
recipient by requiring the issuer to “take reasonable
steps to avoid imposing undue burden or expense on a
person subject to the subpoena” and by setting out
several mandatory and discretionary grounds for
quashing a subpoena. See Fed. R. Civ. P. 45(d)(1), (3).
While Rule 45 does not specifically identify irrelevance as a reason to quash a subpoena, it is generally
accepted that the scope of discovery allowed under
Rule 45 is limited by the relevancy requirement of the
federal discovery rules.4 See Fed. R. Civ. P. 26(b)(1)
Mississippi’s three-drug protocol, as required for Plaintiffs to
prevail under Glossip—is directly barred from disclosure by the
Act. The remainder of the information sought is either readily
available to the public (for example, Georgia’s lethal injection
protocols from 2010 to the present) or of limited relevance to
Plaintiffs’ burden under Glossip to point to a known and available alternative to Mississippi’s three-drug protocol (for example,
documents related to the process by which Georgia determined
that it would or would not use midazolam in its executions).
Thus, the district court did not abuse its discretion by quashing
the subpoena in its entirety, and without first requiring the GDC
to submit a privilege log.
4 Federal courts in this circuit have uniformly applied this principle. See Am. Fed. of State, County and Mun. Employees
(AFSCME) Council 79 v. Scott, 277 F.R.D. 474, 476 (S.D. Fla.
2011) (“Federal courts . . . have treated the scope of discovery
under a subpoena [a]s the same as the scope of discovery under

12a
(stating that discovery is allowed to the extent it is
“relevant to [a] party’s claim or defense”); Advisory
Committee Note to the 1970 Amendments to Rule 45
(noting that the 1970 amendments “make it clear that
the scope of discovery through a subpoena is the same
as that applicable to Rule 34 and the other discovery
rules”). Thus, a subpoena issued under Rule 45 should
be quashed to the extent it seeks irrelevant information.
As indicated by the language of Rule 26, the relevance of information sought in discovery depends on
the claims asserted in the underlying action and the
legal standards that govern those claims. See Fed. R.
Civ. P. 26(b)(1) (permitting discovery of nonprivileged
matter that is “relevant to any party’s claim or defense”); see also Fed. R. Evid. 401 (stating that information is relevant if it has a “tendency to make a fact
more or less probable” and “the fact is of consequence
in determining the action”). To determine the relevance of information sought by Plaintiffs in the GDC
subpoena, one must examine the showing that Plaintiffs must make in order to prove the Eighth Amendment claims they assert in the underlying Mississippi
litigation: (1) that Mississippi’s method of execution
presents a “substantial risk of serious harm” because
it is likely to cause “serious illness and needless suffering” and (2) that there is “an alternative” to the
challenged method of execution that is “feasible, readily implemented, and in fact significantly reduces a
substantial risk of severe pain.” Glossip, 135 S. Ct. at
2737 (quoting Baze v. Rees, 553 U.S. 35, 50–52 (2008)
Rule 26.”); Williams v. City of Birmingham, 323 F. Supp. 3d
1324, 1329 (N.D. Ala. 2018) (“The scope of permissible discovery
with respect to a Rule 45 subpoena is that which is set forth in
[Federal Rule of Civil Procedure] 26(b)(1)[.]”).

13a
(alteration adopted) (internal quotation marks omitted).
The GDC subpoena seeks information concerning
Georgia’s supply and use of pentobarbital in a singledrug lethal execution protocol. Such information obviously has no relevance to the first prong of the Eighth
Amendment analysis— the risk of harm presented by
Mississippi’s method of execution. But although he ultimately decided that the subpoena should be
quashed, the magistrate judge concluded that information concerning Georgia’s supply and use of pentobarbital in a single-drug protocol is relevant to the second prong of the Eighth Amendment analysis because
it could prove “the existence of a feasible alternative”
to Mississippi’s lethal injection protocol.
As explained at greater length below, we find it
very questionable that the information sought by
Plaintiffs is relevant to even the second prong of
Plaintiffs’ Eighth Amendment claim in the underlying
Mississippi action. First, that Georgia has found a
supplier who, under a statutory assurance of absolute
confidentiality, provides pentobarbital to Georgia officials for their use in executions has very little bearing
on whether pentobarbital is a feasible alternative to
Mississippi’s challenged lethal injection protocol, absent some reason to believe that Georgia’s anonymous
pentobarbital supplier would supply the drug to Mississippi if its identity is unmasked in this litigation.
And, as the actions of lethal injection drug suppliers
around the nation clearly indicate, it is highly unlikely that Georgia’s pentobarbital supplier will provide the drug to Mississippi if its identity is disclosed
pursuant to the GDC subpoena. After all, if this anonymous supplier wanted to market the drug to Mississippi, nothing is stopping it from doing so. Moreover,

14a
it is quite predictable that the supplier will stop
providing the drug to Georgia once its identity is disclosed.
Second, to prevail on their Eighth Amendment
claims, Plaintiffs must show not only the existence of
a feasible alternative but also that this feasible alternative “in fact significantly reduces a substantial risk
of severe pain.” Glossip, 135 S. Ct. at 2737 (internal
quotation marks omitted). Yet, Plaintiffs’ own allegations in the Mississippi complaint reveal their additional contention that use of compounded pentobarbital in an execution would itself create a risk of severe
pain, meaning that they also challenge the constitutionality of the use of this substance.
Information concerning Georgia’s supply
and use of pentobarbital in executions cannot help Plaintiffs prove a feasible alternative to Mississippi’s lethal injection protocol.
That a drug supplier under statutory assurances
of absolute confidentiality has agreed to provide Georgia with pentobarbital for use in executions says nothing about the willingness of that supplier to provide
Mississippi with the drug should the supplier’s identity be revealed in this litigation. Indeed, we have so
held in the past when a capital litigant before our
court argued the existence of a feasible alternative to
the drug protocol used by his state based on the fact
that other states use the particular alternative in
question. See Arthur v. Comm’r, Ala. Dep’t of Corr.,
840 F.3d 1268, 1302 (11th Cir. 2016) (“We expressly
hold that the fact that other states in the past have
procured a compounded drug and pharmacies in Alabama have the skills to compound the drug does not

15a
make it available to [Alabama] for use in lethal injections in executions.”), abrogated on other grounds by
Bucklew v. Precythe, 139 S. Ct. 1112, 1127–29 (2019).
Another court in similar litigation has likewise recognized that a drug supplier operating under a promise
of confidentiality is unlikely to provide another state
with lethal injection drugs, and probably will stop
providing the drugs altogether, once its identity is disclosed in litigation. See McGehee v. Texas Dep’t of
Criminal Justice, No. H-18-1546, 2018 WL 3996956,
at *9 (S.D. Tex. Aug. 21, 2018). Indeed, Plaintiffs are
well aware that, in their own case, Mississippi’s present lethal injection drug supplier will refuse to provide Mississippi with drugs for use in executions
should its identity be revealed. See Jordan v. Hall, No.
3:15CV295HTW-LRA, 2018 WL 1546632, at *8 (S.D.
Miss. Mar. 29, 2018).
To understand why lethal injection drug suppliers
are so resistant to disclosure of their identities, one
must be aware of the history underlying the practice
of lethal injection in this country, which the Supreme
Court helpfully summarized in Glossip. See Glossip,
135 S. Ct. at 2731–34. As the Glossip Court explained,
the death penalty has been an accepted form of punishment since the founding of this country, but our
views of how it should be implemented have changed
over time, and we have settled on lethal injection as
the most humane means of carrying out a death sentence. See id. at 2731–32 (noting that lethal injection
“today is by far the most prevalent method of execution in the United States” (internal quotation marks
omitted)); see also Ledford v. Comm’r, Ga. Dep’t of
Corr., 856 F.3d 1312, 1318 (11th Cir. 2017) (“[T]he firing squad, hanging, the electric chair, and the gas
chamber have each in turn given way to more humane

16a
methods [of execution], culminating in today’s consensus on lethal injection.” (second alteration in original)
(internal quotation marks omitted)). Having settled
on lethal injection as the preferred method of execution, states also eventually settled on a preferred
means of implementing an execution by lethal injection: a three-drug protocol involving (1) an initial injection of sodium thiopental, a fast- acting barbiturate
sedative that induces a deep, comalike unconsciousness, (2) a second injection of a paralytic agent that
inhibits all muscular-skeletal movements and thus
stops respiration, and (3) a third injection of potassium chloride, which induces cardiac arrest. See Glossip, 135 S. Ct. at 2732. This protocol, which the Supreme Court held constitutional in Baze, for many
years “enabled [s]tates to carry out the death penalty
in a quick and painless fashion.” Id. at 2733.
Although Baze “cleared any legal obstacle” to the
three-drug protocol described above, the Glossip
Court explained, “a practical obstacle soon emerged,
as anti-death-penalty advocates pressured pharmaceutical companies to refuse to supply the drugs used
to carry out death sentences.” Id. Their advocacy had
its intended effect: the only American manufacturer
of sodium thiopental “was persuaded to cease production of the drug.” Id. Then when the manufacturer announced plans to resume production of the drug in Italy, activists kept the pressure on and their vigorous
advocacy prompted both the manufacturer and the
Italian government to disallow the sale of sodium thiopental for use in American executions. See id. Ultimately, rather than face the uproar created by death
penalty opponents, the company entirely withdrew sodium thiopental from the market. See Glossip, 135 S.
Ct. at 2733.

17a
Having lost access to sodium thiopental as a result
of the vociferous pressure brought to bear by deathpenalty opponents, states were forced to try to find a
different first drug for use in the three-drug lethal injection protocol. They found such a drug—pentobarbital—which, like sodium thiopental, is a barbiturate
that can reliably induce a coma-like and pain-free
state. See id. But anti-death-penalty advocates once
again quickly intervened to pressure the pentobarbital manufacturer into refusing to provide the drug to
states for use in executions. They succeeded. See id.
After being heavily lobbied by death penalty opponents, the Danish manufacturer of pentobarbital took
steps to block the use of the drug in American executions. See id. As described by the Glossip Court, the
ultimate outcome of this very effective advocacy by
death penalty opponents has been to make it difficult—if not impossible—for states to acquire sodium
thiopental and pentobarbital for use in executions,
even though it is generally acknowledged that the use
of either of these drugs renders an execution by lethal
injection as humane as it can possibly be. See id. at
2733–34.
In the wake of these continuing set-backs, some
states have managed to find a compounding pharmacy
that is willing to supply pentobarbital for the state to
use in lethal injections. Yet, understandably, given
the vehement objection visited on lethal injection drug
manufacturers, these compounding pharmacies have
agreed to supply the compounded pentobarbital only
when confidentiality is guaranteed either by contract
or statute. See In re Missouri Dep’t of Corr., 839 F.3d
at 734–35 (citing testimony indicating that Missouri’s
pentobarbital supplier had advised a state corrections
department official that the supplier would no longer

18a
provide the drug to Missouri if its identity was disclosed); McGehee, 2018 WL 3996956, at *9 (noting
that Texas’s pentobarbital supplier had “based its decision to supply [Texas] with drugs on its identity remaining secret” (internal quotation marks omitted));
Arthur, 840 F.3d at 1302 (“[W]hile four states ha[ve]
recently used compounded pentobarbital in their own
execution procedures . . . none were willing to give the
drug to [Alabama] or name their source.”).
And a growing number of states, including Georgia, have passed laws that are designed to protect the
confidentiality of such pharmacies, as well as the
other people and entities who participate in executions. See O.C.G.A. § 42-5-36(d)(2) (barring disclosure
of lethal injection drug supplier information and classifying such information as a “confidential state secret”); Va. Code § 53.1-234 (stating that the identity of
Virginia’s lethal injection drug suppliers “shall be confidential . . . and shall not be subject to discovery or
introduction as evidence in any civil proceeding unless
good cause is shown”); Ohio Revised Code § 2949.221
(providing that information identifying Ohio’s lethal
injection drug suppliers “shall be classified as confidential” and is not subject to “discovery, subpoena, or
any other means of legal compulsion for disclosure”);
Tex. Gov’t Code Ann. § 552.1081 (exempting lethal injection drug supplier information from the disclosure
requirements of the Texas Public Information Act);
Miss. Code Ann. § 99-19-51(6)(c) (stating that the
identity of lethal injection drug suppliers “shall at all
times remain confidential”).
As explained in the McGehee action in Texas, pharmacies view the confidentiality provided by these
state statutes as a necessary shield against the
“threats, harassment, and boycotts to which other

19a
suppliers of lethal injection drugs have been subjected
as a result of their lawful decision to supply state correctional departments with drugs needed to carry out
executions.” McGehee, 2018 WL 3996956, at *9 (internal quotation marks omitted). See also In re Virginia
Dep’t of Corr. v. Jordan, No. 3:17MC02, 2017 WL
5075252, at *19 (E.D. Va. Nov. 30, 2017) (citing an intimidating email sent to Missouri’s lethal injection
drug supplier threatening that “it only takes one fanatic with a truckload of fertilizer to make a real dent
in business as usual”), aff’d, Virginia Dep’t of Corr. v.
Jordan, 921 F.3d 180 (4th Cir. 2019); Arthur, 840 F.3d
at 1305 (“Given the controversial nature of the death
penalty, it is not surprising that parties who might
supply these drugs are reluctant to have their names
disclosed.”).
Georgia’s secrecy statute, which was enacted in
2013, states that the identity of any person or entity
who participates in a lethal injection is “a confidential
state secret” that is not “subject to disclosure . . . under
judicial process.” See O.C.G.A. § 42-5-36(d). Thus, the
pharmacy that supplied the GDC with the pentobarbital used in Georgia’s most recent executions did so
under the assurance of absolute confidentiality provided by this Georgia statute. As Glossip has made
clear, should the pharmacy’s identity be revealed as a
result of the enforcement of the present subpoena,
there can be no suspense as to what will happen next.
Anti-death penalty advocates will pressure this compounding pharmacy to cease supplying pentobarbital
to any prison system. And if history is a teacher—and
it surely is on this matter—the pharmacy will be
forced to knuckle under to this pressure. Meaning
that not only will Georgia no longer have a supplier

20a
for the first drug in its three-drug protocol, but Mississippi will be no closer to finding a willing supplier
of pentobarbital, which is ostensibly the purpose behind Plaintiffs’ subpoena. Thus, as it is quite likely
that, once its identity is revealed, the pharmacy will
simply cease to supply the drug to any state, including
Georgia, there is very little likelihood that the drugsupplier information requested in the GDC subpoena
will help Plaintiffs in their effort to show a feasible
alternative to Mississippi’s lethal injection protocol.
See In re Missouri Dep’t of Corr., 839 F.3d at 736
(“[B]ecause [the supplier] would not supply pentobarbital to Mississippi once its identity is disclosed, we
conclude that [the supplier’s] identity has no relevance to the inmates’ Eighth Amendment claim.”);
Bucklew, 139 S. Ct. at 1129 (“[A]n inmate must show
that his proposed alternative method is not just theoretically feasible but also readily implemented” (internal quotation marks omitted)).
Given Plaintiffs’ own challenge to the
safety of compounded pentobarbital as a lethal injection drug, information providing a
source for that drug would not help Plaintiffs show an alternative method of execution that significantly reduces the risk of
pain involved in a Mississippi execution.
There is a second reason why the information requested by Plaintiffs bears only marginal relevance to
Plaintiffs’ underlying claims in the Mississippi action.
It is undisputed that the only form of pentobarbital
the GDC has been able to acquire in recent years is
compounded pentobarbital, and that Georgia has in
fact used compounded pentobarbital in its most recent
executions. See Ledford, 856 F.3d at 1315 (noting that

21a
in March 2013 Georgia began conducting lethal injections with a single dose of compounded pentobarbital,
rather than the single dose of FDA-approved pentobarbital it formerly used.). Plaintiffs’ subpoena seek
from the GDC information concerning its source of
compounded pentobarbital ostensibly because this information might enable Mississippi to likewise use
this same source to obtain compounded pentobarbital
and thereby to utilize a drug that would be constitutionally acceptable.
Yet, at the same time Plaintiffs offer this rationale
to support their claim that the information is relevant,
Plaintiffs’ complaint nonetheless questions the safety
of compounded pentobarbital. Indeed, the Mississippi
complaint contains more than twenty allegations describing the “substantial risk of serious harm and severe pain” to an inmate who is subjected to a lethal
injection using compounded pentobarbital. Plaintiffs
might well respond that the Mississippi complaint
specifically challenges the use of compounded pentobarbital as the first drug in Mississippi’s three-drug
lethal injection protocol, not as the sole drug to implement the execution. Certainly, some allegations can
be so interpreted.
However, in other allegations in the Mississippi
complaint, Plaintiffs clearly question the safety of
compounded pentobarbital, no matter what protocol is
used. For example, Plaintiffs allege that compounded
drugs are not FDA-approved, are not subject to regulations that ensure their strength and quality, and
have not been evaluated for effectiveness and safety.
Further noting the experimental nature of compounded pentobarbital, Plaintiffs allege that they will
be among the first prisoners in Mississippi to be exe-

22a
cuted with compounded pentobarbital. Given the uncertainty of the compounding process, Plaintiffs allege
that “a substantial risk of serious harm to Plaintiffs”
will result from the use of compounded pentobarbital.
Indeed, Plaintiffs allege that compounded pentobarbital “poses a substantial risk of serious harm” to
the prisoner “by inflicting pain and suffering itself.”
Plaintiffs point to the Oklahoma execution of Michael
Lee Wilson, who, after being injected with compounded pentobarbital, stated: “I feel my whole body
burning.” Wilson’s experience, which the complaint alleges to have been “an excruciatingly painful reaction”
prompted by the injection of compounded pentobarbital, reveals that “Defendants’ untried and untested
drugs create a substantial risk that Plaintiffs will suffer unnecessary and excruciating pain either by the
injection of the compounded pentobarbital causing a
painful reaction itself, or by the compounded pentobarbital failing to work, resulting in a torturous death
by life suffocation and cardiac arrest.” (emphasis
added). In short, Plaintiffs allege that compounded
pentobarbital “made with unknown and potentially
contaminated or counterfeit ingredients is nothing
short of human experimentation and presents an unacceptable risk that Plaintiffs will experience unnecessary pain and suffering if and when they are executed.”
That’s not all. Plaintiffs actually seek an injunction prohibiting the use of any compounded drug, and
particularly compounded pentobarbital, in any execution. All of which makes one wonder what the point is
of outing a supplier of a substance, use of which substance Plaintiffs will immediately attack even should
a willing public supplier ever again be located.

23a
Obviously, Plaintiffs’ allegations challenging the
safety of compounded pentobarbital greatly undermine their argument that the identity of Georgia’s
supplier of this substance is relevant to their Eighth
Amendment claims. Pursuant to Baze and Glossip,
Plaintiffs cannot prevail on these claims merely by
proving that there is a feasible alternative to Mississippi’s lethal injection protocol. Rather, they must also
prove the existence of a feasible alternative that
“would entail a significantly less severe risk” of pain.
See Glossip, 135 S. Ct. at 2737. See also Bucklew, 139
S. Ct. at 1130 (“A minor reduction in risk is insufficient; the difference must be clear and considerable.”).
Thus, even assuming the information sought in the
GDC subpoena would help Plaintiffs prove that there
is some alternative to Mississippi’s three-drug protocol, that information will not advance their Eighth
Amendment claims unless the proposed alternative
substantially reduces the risk of severe pain to the
condemned inmate. See Bucklew, 139 S. Ct. at 1130.
Plaintiffs fail this test. They appear to have little
to nothing to gain by obtaining information from the
GDC about its use of compounded pentobarbital in executions. At best, enforcement of the GDC subpoena
can only provide Plaintiffs with an alternative method
of execution that—besides not being feasible because
disclosure of the supplier will likely result in its refusal to supply in the future— Plaintiffs contend to be
unconstitutional. See Glossip, 135 S. Ct. at 2737
(“[P]risoners cannot successfully challenge a [s]tate’s
method of execution merely by showing a slightly or
marginally safer alternative. Instead, prisoners must
identify an alternative that is feasible, readily implemented, and in fact significantly reduces a substantial

24a
risk of severe pain.” (internal quotation marks and citation omitted)).
This conclusion renders problematic Plaintiffs’ argument that the information requested is relevant.
Nonetheless, as explained below, even if the information sought in the GDC subpoena is relevant to the
claims asserted in the underlying Mississippi litigation, the subpoena must still be quashed under the
provision of Federal Rule of Civil Procedure
45(d)(3)(A) requiring that result when a subpoena
“subjects a person to undue burden.” Fed. R. Civ. P.
45(d)(3)(A)(iv).
B. Potential Pertinent Grounds for Quashing the Present Subpoena
Georgia’s Lethal Injection Secrecy Act states that:
The identifying information of any person or
entity who participates in or administers
the execution of a death sentence and the
identifying information of any person or entity that manufactures, supplies, compounds, or prescribes the drugs, medical
supplies, or medical equipment utilized in
the execution of a death sentence shall be
confidential and shall not be subject to disclosure . . . under judicial process.
O.C.G.A. § 42-5-36(d)(2). The Act defines “identifying
information” to include “any records or information
that reveals a name, residential or business address,
residential or business telephone number, day and
month of birth, social security number, or professional
qualifications” of a person or entity that “manufactures, supplies, [or] compounds” lethal injection

25a
drugs. Id. § 42-5-36(d)(1), (2). It classifies such information as “a confidential state secret.” Id. § 42-536(d)(2).
Rule 45(d)(3) provides several potential grounds
for quashing the GDC subpoena: some of them mandatory and some discretionary. Among the mandatory
grounds, a subpoena must be quashed if it requires
disclosure of “privileged or other protected matter”
(Rule 45(d)(3)(A)(iii)) or if the subpoena “subjects a
person to undue burden” (Rule 45(d)(3)(A)(iv)). Among
the discretionary grounds, Rule 45(d)(3)(B)(i) gives
the district court the authority to quash a subpoena
that would require the disclosure of trade secrets and
other confidential information. In relevant part, the
discretionary rule states that a district court may
quash a subpoena that requires “disclosing a trade secret or other confidential research, development, or
commercial information.” Fed. R. Civ. P. 45(d)(3)(B)(i).
The magistrate judge’s explanation of his reasoning in quashing the subpoena was admittedly quite
spare. Indeed, he did not cite Rule 45 at all in his written order. Yet, both his comments at the hearing and
his written order indicate that he considered the interests underlying all three provisions to be apt in determining whether the motion to quash was meritorious.5
His statements during the hearing on the motion to quash indicated the need to factor into his analysis the heavy burden that
compliance with the GDC subpoena would impose on the state.
For example, the magistrate judge noted the need to balance
Plaintiffs’ need for the information requested in the subpoena in
the underlying Mississippi litigation with the “need[] to keep the
information quiet.” In his written order, he alluded to the need
to decide whether the information sought in the GDC subpoena
was “privileged or otherwise protected.” Finally, it is apparent
5

26a
As to the provision of Rule 45 permitting the
quashing of a subpoena that seeks to disclose trade
secrets and other confidential information—Rule
45(d)(3)(B)(i)—“courts weigh the claim to privacy
against the need for disclosure.” See Festus & Helen
Stacy Found., Inc. v. Merrill Lynch, Pierce Fenner &
Smith Inc., 432 F. Supp. 2d 1375, 1380 (N.D. Ga.
2006); see also United States ex rel. Willis v. SouthernCare, Inc., No. CV410-124, 2015 WL 5604367, at *5
(S.D. Ga. Sept. 23, 2015) (applying a balancing test to
the Rule 45(d)(3)(B)(i) analysis to determine “whether
the need for disclosure outweighs [the] claim to privacy”). Certainly, the interests sought to be protected
by the trade-secret provision in Rule 45 are analogous
to those the State seeks to protect by preventing any
disclosure of information revealing the identity of persons connected with the supplying of compounded
pentobarbital. That Georgia has deemed the source of
the drug to be a “confidential state secret,” O.C.G.A.
§ 42-5-36(d)(2), and has formalized that characterization via a statute forbidding disclosure demonstrates
the importance the State places on maintaining the
confidentiality of this information. Indeed, this Court
has acknowledged that disclosure of the information
would threaten the State’s ability to fully enforce its
criminal sentencing laws. Gissendaner v. Comm’r, Ga.
Dep’t of Corr., 803 F.3d 565, 569 (11th Cir. 2015) (“Gissendaner II”). Yet, we are aware of no authority that
has expanded the trade-secret provision, which is typically applied in commercial contexts, to a scenario

that the magistrate judge viewed the information sought in the
subpoena as protected from disclosure due to its highly confidential nature.

27a
such as this. Thus, we do not base our affirmance on
this ground.
As to the provision of Rule 45 that mandates the
quashing of a subpoena that would require the disclosure of “privileged or other protected matter” (Rule
45(d)(3)(A)(iii)), the existence of a Georgia statute prohibiting disclosure does not, by itself, give rise to a federal privilege. Federal evidentiary privileges in federal question litigation arising in federal court are
governed by federal law, and a state evidentiary privilege does not automatically give rise to a federal evidentiary privilege. See Hancock v. Hobbs, 967 F.2d
462, 466 (11th Cir. 1992) (“A claim of privilege in federal court is resolved by federal common law, unless
the action is a civil proceeding and the privilege is invoked with respect to an element of a claim or defense
as to which State law supplies the rule of decision.”
(internal quotation marks omitted)). And while federal courts are empowered by Federal Rule of Evidence 501 to recognize new federal privileges arising
from state law, they generally are hesitant to do so.
See Doe No. 1 v. United States, 749 F.3d 999, 1009
(11th Cir. 2014) (observing that Congress has empowered the federal courts through Rule 501 to recognize
new privileges, but that there is a presumption
against doing so).
But the text of Rule 45(d)(3)(A)(iii) indicates that
the protection of that specific provision extends beyond the strict bounds of “privileged” information to
encompass “other protected matter.” Fed. R. Civ. P.
45(d)(3)(A)(iii). While caselaw has not fleshed out the
definition of the term “other protected matter,” there
are certainly sound arguments here sufficient to
prompt consideration whether the confidentiality

28a
agreement between the State of Georgia and the undisclosed pentobarbital supplier, safeguarded by a
state statute forbidding disclosure of that supplier’s
identity, constitutes “other protected matter.”
Indeed, federal courts have recognized that privacy interests and confidentiality concerns can factor
into a decision whether to quash a subpoena under
Rule 45, even though the information requested by the
subpoena is not subject to a federal evidentiary privilege. See Alig-Mielcarek v. Jackson, 286 F.R.D. 521,
526–27 (N.D. Ga. 2012) (quashing a plaintiff’s request
for nonparty educational records based in part on the
privacy rights protected by the Family Educational
Rights and Privacy Act of 1974 (“FERPA”), which
“does not provide a privilege preventing disclosure of
student records, [but nevertheless] seeks to protect
the confidentiality of educational records”); McGehee,
2018 WL 3996956, at *11 (noting that the Texas statute exempting lethal injection drug supplier information from the requirements of a state Public Information Act “exhibits a democratically manifested intent not to disclose the source of Texas’ lethal injection
drugs” which, though it does not give rise to a federal
evidentiary privilege, should not be ignored). See also
Porter v. Ray, 461 F.3d 1315, 1324 (11th Cir. 2006)
(affirming refusal to allow discovery of state parole
records, which are not subject to a federal evidentiary
privilege, based in part on confidentiality considerations); McGoy v. Ray, 164 F. App’x 876, 878 (11th Cir.
2006) (holding that the district court did not abuse its
discretion when it found that the facts asserted by the
plaintiff were insufficient to compel discovery of confidential parole records, which were designated a confidential state secret by state statute).

29a
Moreover, when focusing on the need for protection, it is not just protection for the State and its interests that are at issue here. When a citizen is assured via a state statute that his identity will be protected if, at some great physical and economic risk to
himself, he provides a service to the state, that promise should not be lightly discarded.
Nevertheless, we do not base our decision to affirm
the district court’s quashing of Plaintiff’s third-party
subpoena on the trade-secret provision or the “other
protected matter” provision set out in Rule
45(d)(3)(B)(i) and 45(d)(3)(A)(iii), respectively. Although the interests underlying those provisions inform our ultimate analysis, we conclude that Plaintiffs’ subpoena was required to be quashed because it
subjected the GDC to an “undue burden,” which, pursuant to Rule 45(d)(3)(A)(iv), mandates the quashing
of the subpoena.
C. Compliance with Plaintiffs’ Subpoena
Would Impose an Undue Burden on the
State of Georgia
Even if Rule 45(d)(3)’s protection of a “trade secret,” of “confidential information,” and of “other protected matter” is inapt here for purposes of quashing
the GDC subpoena, it is clear that compliance with
this subpoena would impose an “undue burden” on the
State of Georgia. It therefore must be quashed pursuant to Rule 45(d)(3)(A)(iv), which makes mandatory
the quashing of any subpoena that would impose such
a burden on the target of the subpoena.
The undue burden analysis requires the court to
“balance the interests served by demanding compliance with the subpoena against the interests furthered by quashing it.” 9A Wright & Miller, Federal

30a
Practice and Procedure § 2463.1 (3d ed. 2019). See also
Virginia Dep’t of Corr., 2017 WL 5075252, at *5, *10
(applying the undue burden analysis). Several factors
have been identified as pertinent to the analysis, including the “relevance of the information requested”
to the underlying litigation and the “burden [that
would be] imposed” by producing it. Wiwa v. Royal
Dutch Petroleum Co., 392 F.3d 812, 818 (5th Cir.
2004). The status of the subpoena recipient as a nonparty is also a factor that can weigh against disclosure
in the undue burden inquiry. See id. (“[I]f the person
to whom the document request is made is a non-party,
the court may also consider the expense and inconvenience to the non-party.”).
Prior Litigation Concerning the Lethal Injection Secrecy Act
As discussed above, Georgia passed the Lethal Injection Secrecy Act in response to the concerted effort
by death penalty opponents to make lethal injection
drugs unavailable for use in American executions. See
Owens v. Hill, 295 Ga. 302, 317 (2014) (describing the
rationale underlying the passage of Georgia’s Lethal
Injection Secrecy Act). One can reasonably infer that
it is only because of this statute that Georgia has been
able to secure a source of pentobarbital for use in executions despite its relative scarcity. And Georgia’s
ability to obtain compounded pentobarbital would be
jeopardized were it not for the confidentiality provided
by the Lethal Injection Secrecy Act. See id. (“[W]ithout
the confidentiality offered to execution participants by
the statute, as the record and our case law show, there
is a significant risk that persons and entities necessary to the execution would become unwilling to participate.”); see also Gissendaner II, 803 F.3d at 569
(“To require . . . that Georgia open up about its source

31a
of pentobarbital would result in the drug becoming
completely unavailable for use in executions, even
though its use does not violate the Eighth Amendment.”), cert. denied sub nom., Gissendaner v. Bryson,
136 S. Ct. 26 (2015).
This Court has had several opportunities to consider the legality and the implications of the Lethal
Injection Secrecy Act. See Gissendaner II, 803 F.3d at
569; Wellons v. Comm’r, Ga. Dep’t of Corr., 754 F.3d
1260, 1266–67 (11th Cir. 2014), cert. denied sub nom.,
Wellons v. Owens, 573 U.S. 928 (2014); Terrell v.
Bryson, 807 F.3d 1276, 1277 (11th Cir. 2015); Jones v.
Comm’r, Ga. Dep’t of Corr., 811 F.3d 1288, 1292–94
(11th Cir. 2016). In these cases—which involved Georgia death row prisoners who were seeking information
concerning the source of Georgia’s compounded pentobarbital—this Court deferred to the Lethal Injection
Secrecy Act, recognizing that the confidentiality provided by the Act is necessary to protect Georgia’s
source of pentobarbital for use in executions and concluding that the condemned inmates in these cases
had no right to the disclosure of information made
confidential by the Act, including information that
would identify the supplier or source of the drugs to
be used in the inmate’s execution. See Jones, 811 F.3d
at 1292–94 (reviewing this Court’s case law applying
the Lethal Injection Secrecy Act).
Admittedly, the decisions in those cases did not address the quashing of a non-party subpoena under
Rule 45(d)(3)(A)(iv). But they acknowledged the
states’ significant interest in keeping information
about the source of their lethal injection drugs secret.

32a
Litigation In Other Circuits Concerning
Disclosure of Confidential Information
Concerning a State’s Source For a Drug
Used in Executions
Courts in other circuits have considered the question before us in a Rule 45 context and have concluded
that disclosure of lethal-injection-drug-supplier information—such as the information sought in the GDC
subpoena—would impose an undue burden on a state.
See In re Missouri Dep’t of Corr., 839 F.3d at 736
(granting a writ of mandamus precluding the disclosure of Missouri’s pentobarbital supplier on relevancy
and undue burden grounds); In re Ohio Execution Protocol Litig., 845 F.3d 231, 239 (6th Cir. 2016) (affirming the district court’s Rule 26(c) protective order precluding disclosure of information that could reveal the
identity of Ohio’s lethal injection drug supplier because disclosure would impose an “undue burden” on
the state); Virginia Dep’t of Corr., 2017 WL 5075252,
at *3, *11 (granting the Virginia Department of Correction’s motion to quash a subpoena to the extent the
information sought in the subpoena “might lead to the
disclosure of the supplier of the chemicals the VDOC
utilizes in carrying out an execution or to the disclosure of the identities of the members of the VDOC execution team”); McGehee, 2018 WL 3996956, at *10
(concluding that full compliance with a subpoena
served on the Texas Department of Criminal Justice,
and seeking lethal injection drug supplier information, would create an undue burden on the state).
These courts have held that a subpoena seeking such
information must therefore be quashed under Rule
45(d)(3)(A)(iv).
The rationale of these decisions is best illustrated
by the Eighth Circuit’s undue burden analysis in a

33a
case involving the state of Missouri and the same Mississippi death row inmates who served the GDC subpoena that is at issue here. See In re Missouri Dep’t of
Corr., 839 F.3d at 736. In that case, the Mississippi
death row inmates served a third-party subpoena on
the Missouri Department of Corrections, seeking “information regarding [Missouri’s] use of pentobarbital
in executions, including the identity of [Missouri’s]
anonymous supplier.” See id. at 734. Missouri corrections officials moved to quash the subpoena in the district court on various grounds, including undue burden under Rule 45(d)(3)(A)(iv). See id. In support of
their undue burden argument, the Missouri officials
submitted an affidavit from the director of the state
corrections department explaining that “because
[Missouri’s] pentobarbital suppliers require the assurance of confidentiality, producing the information
sought by the inmates would result in the state no
longer being able to obtain the drug for use in executions.” Id. (internal quotation marks omitted).
The district court rejected the undue burden argument and denied the motion to quash, and the Eighth
Circuit initially denied Missouri’s petition for a writ of
mandamus to prevent enforcement of the district
court’s ruling. See id. at 735. But upon rehearing, and
based on its conclusion that Missouri’s pentobarbital
supplier would not provide the drug to Mississippi
prison officials—and that it would in fact stop providing the drug even to Missouri if its identity were revealed pursuant to the subpoena—the Eighth Circuit
held that disclosure of the information sought in the

34a
subpoena would impose an undue burden on Missouri.6 In re Missouri Dep’t of Corr., 839 F.3d at 736.
The court explained that Missouri has an interest in
“exercising its sovereign power” to enforce its criminal
laws, and that this interest would be harmed if disclosure of the drug supplier information requested in the
subpoena caused Missouri to lose access to the drugs
necessary to carry out a lawfully imposed death sentence. See id. Noting that the Missouri drug supplier
information had “little, if any, relevance to” the
Eighth Amendment claims asserted by the Mississippi inmates, given the supplier’s reluctance to provide the drugs to Mississippi, the court concluded that
the harm of disclosure “clearly outweighs the need of
the inmates” for the information, and that compliance
with the subpoena would thus impose an “undue burden” on Missouri. Id. at 736–37.
Although it was not mentioned in the Missouri decision, several of the courts that have denied disclosure of lethal injection drug supplier information pursuant to an undue burden analysis have relied in part
on state secrecy statutes that—like Georgia’s Lethal
Injection Secrecy Act—are intended to maintain the
confidentiality of such information. See In re Ohio Execution Protocol Litig., 845 F.3d at 237 (noting that
the district court “identified—as non-dispositive evidence—the existence of Ohio’s secrecy statute” in support of its Rule 26(c) undue burden holding); Virginia
Dep’t of Corr., 2017 WL 5075252, at *18–19 (citing Va.

The court also noted that the drug supplier information would
not “remain relevant” to the claims asserted by the plaintiffs if,
upon disclosure of its identity, the drug supplier “indisputably
refuses to make pentobarbital available to anyone” including
Mississippi. See In re Missouri Dep’t of Corr., 839 F.3d at 736.
6

35a
Code Ann. § 53.1-234, which provides that the identities of lethal injection drug suppliers are confidential,
exempt from the state Freedom of Information Act,
and not subject to discovery unless good cause is
shown); McGehee, 2018 WL 3996956, at *7 (citing Tex
Gov’t Code Ann. § 552.1081, which exempts from the
Texas Public Information Act disclosure of “identifying information” of lethal injection drug suppliers).
None of the courts in these cases held that the
state secrecy statutes created a new federal evidentiary privilege that absolutely bars the disclosure of
lethal injection drug supplier information. See In re
Ohio Execution Protocol Litig., 845 F.3d at 239 (rejecting the suggestion that the district court’s reliance on
the statute had “federalize[d] the Ohio secrecy law as
a common-law privilege for immunity”). Rather, the
courts viewed the state statutes as evidence of the
need for confidentiality with respect to such information, which need weighs heavily in the undue burden analysis. See id. at 237 (describing the concerns
that led to the creation of Ohio’s secrecy statute: “the
burden on and prejudice to the state that disclosure
presents” (internal quotation marks omitted)); Virginia Dep’t of Corr., 2017 WL 5075252, at *19 (characterizing the Virginia secrecy statute as “an evidentiary ‘add-on’ to the reasons counseling against disclosure”); McGehee, 2018 WL 3996956, at *7 (recounting
the events that led to the enactment of the Texas secrecy statute, which included a “firestorm of angry
emails, protests, and media coverage that ultimately
dissuaded [a Texas pharmacy] from continuing to supply the TDCJ with lethal-injection drugs” (internal
quotation marks omitted)).
Like those courts that have expressly addressed
the relevance of state secrecy statutes in this context,

36a
we view Georgia’s Lethal Injection Secrecy Act, not as
creating a new federal evidentiary privilege, but as evidence of the need to maintain the confidentiality of
the lethal injection drug supplier information requested in the GDC subpoena, which need clearly outweighs any interest Plaintiffs might otherwise have in
obtaining the information. And like those courts, we
agree that the undue burden provision of Rule
45(d)(3)(A)(iv) applies to bar disclosure of lethal injection drug supplier information when such disclosure
would jeopardize a state’s ability to implement its
death penalty laws. We explain our thinking.
Application of Undue Burden Standard to
the Present Case
We conclude (1) that Georgia has a strong interest
in enforcing its criminal laws, including its death penalty laws; (2) that disclosure of the information requested in Plaintiffs’ subpoena would clearly burden
that interest; (3) that the relevance of the information
to Plaintiffs’ Mississippi case is marginal to non- existent; and (4) that Georgia’s interests clearly outweigh Plaintiffs’ interests in disclosure.
Georgia obviously has a strong interest in enforcing its criminal laws. See In re Blodgett, 502 U.S. 236,
239 (1992) (noting the “great weight” of a state’s interest in “exercising its sovereign power to enforce the
criminal law”). This interest encompasses the state’s
ability to implement a lawfully imposed death sentence. See In re Ohio Execution Protocol Litig., 845
F.3d at 240 (citing authority for the proposition that a
state “has an essential interest in carrying out a lawfully imposed sentence”); see also Nelson v. Campbell,
541 U.S. 637, 644 (2004) (calling the state’s interest in
implementing its death penalty laws “significant”).

37a
That Plaintiffs and others oppose the death penalty
cannot justify providing Plaintiffs with a means to effectively end Georgia’s ability to carry out its death
sentences. In re Ohio Execution Protocol Litig., 845
F.3d at 240 (observing that “[o]pprobrium alone”
should not be permitted to subvert this significant
state interest.).
Second, as discussed at great length above, disclosure of the information sought by Plaintiffs in the
GDC subpoena would greatly jeopardize Georgia’s
ability to implement its criminal laws because disclosure of the identity of its supplier would likely result
in the loss of that source of supply. To summarize, and
as recognized by the Supreme Court in Glossip, the
historical record reveals that disclosure of the supplier for a particular drug used by a state in executions will have predictable consequences: anti-death
penalty advocates will hound the supplier of that drug
until the supplier capitulates and ceases supplying
the drug. And without that drug or something comparable, the state’s executions will necessarily cease. See
discussion supra at 15–19.
Indeed, unable to obtain either sodium thiopental
or pentobarbital—drugs that have been recognized as
providing a humane method of lethal injection—as a
result of the actual or feared retaliation by anti-drug
penalty advocates, some states have turned to the
drug midazolam, a sedative in the benzodiazepine
family of drugs. Yet, midazolam has been the subject
of numerous Eighth Amendment challenges, including the challenge mounted by Plaintiffs in the underlying Mississippi litigation. See Glossip, 135 S. Ct. at
2734–35. Other states, including Georgia, have managed to locate a source of pentobarbital from a compounding pharmacy, on the condition that the identity

38a
of the pharmacy remain confidential. See McGehee,
2018 WL 3996956, at *3 (noting that such pharmacies
“have attempted to keep their identit[ies] secret”). To
ensure a continuing source of supply, some states
have enacted statutes that protect the anonymity of
the source or to otherwise assure confidentiality. See
discussion at 19–22; see also Waldrip v. Owens, No.
1:14-CV-2119-WCO, 2014 WL 12496989, at *1 (N.D.
Ga. July 8, 2014) (“One of the stated intentions of
[Georgia’s secrecy] law is to allow the [s]tate to obtain
lethal injection drugs from manufacturers without the
manufacturers having to face criticism from opponents of capital punishment, which might lead the
manufacturers to refuse to provide the drugs.”); Owens, 295 Ga. at 317 (“[W]ithout the confidentiality offered to execution participants by the statute, as the
record and our case law show, there is a significant
risk that persons and entities necessary to the execution would become unwilling to participate.”); Gissendaner II, 803 F.3d at 569 (“To require . . . that Georgia
open up about its source of pentobarbital would result
in the drug becoming completely unavailable for use
in executions, even though its use does not violate the
Eighth Amendment.”); Arthur, 840 F.3d at 1301 (citing testimony indicating that Alabama was unable to
procure compounded pentobarbital for use in lethal
injections despite contacting nearly thirty potential
sources of the drug); McGehee, 2018 WL 3996956, at
*7 (observing that Texas exempted lethal injection
drug supplier information from the disclosure requirements of its state Public Information Act after one
such disclosure caused a “firestorm of angry emails,
protests, and media coverage that ultimately dissuaded [a] pharmacy from continuing to supply
[Texas] with lethal-injection drugs” (internal quotation marks omitted)).

39a
Although these state laws do not give rise to a federal evidentiary privilege, they weigh heavily in the
undue burden analysis because they are evidence of
the strong interest states have in preventing disclosure of lethal injection drug supplier information and
the burden to the states that disclosure of such information imposes. See discussion supra at 35–39.
Third, to determine whether the subpoena subjects
the subpoena recipient to an undue burden, one must
identify both that burden as well as the interests
served by demanding compliance with the subpoena.
As to the latter inquiry, the relevance of the requested
information to the underlying litigation, or the lack
thereof, is important. In addition, a subpoena recipient’s status as a non-party to the litigation is also a
factor that can weigh against disclosure.
Plaintiffs lose on both counts. GDC is not a party
to Plaintiffs’ underlying litigation with the State of
Mississippi.7 More importantly, and as explained earlier, the relevance of the subpoenaed information to
Plaintiffs’ claims in the Mississippi case is marginal
to non-existent. See discussion supra at 12–26. Plaintiff’s purported reason for seeking the source of Georgia’s compounded pentobarbital is to rebut Mississippi’s defense that the latter is unable to find a source
for pentobarbital. In other words, Plaintiffs would
Indeed, the Mississippi district court where the underlying action is pending has entered a protective order that prohibits
Plaintiffs from obtaining drug supplier information even from
the very Mississippi defendants who are parties to that action.
See Jordan v. Hall, No. 3:15CV295HTW-LRA, 2018 WL 1546632,
at *11 (S.D. Miss. Mar. 29, 2018) (concluding that “on balance,
the hardship to the Defendants of preventing them from obtaining lethal execution drugs outweighs the Plaintiffs’ need for this
information, which could be gathered by other means”).
7

40a
seemingly have us believe that if Plaintiffs could just
identify the source of this drug, Plaintiffs could perhaps broker a deal between Mississippi and the nowanonymous Georgia supplier for the latter to provide
this drug to Mississippi correctional administrators.
Of course, that is a totally incredible argument. As explained above, once the Georgia supplier is identified,
in defiance of a Georgia statute that promised the supplier confidentiality, there can be no suspense as to
what will happen next. Its identity now unmasked,
the supplier will either immediately stop providing
the drug to Georgia or anyone else, or the supplier will
eventually be hounded by anti-death penalty activists
until it is forced to cease production of this substance.
In short, disclosure of the supplier’s identity is unlikely to bring Mississippi any closer to obtaining the
compounded pentobarbital, which is the purported
goal behind the subpoena.
Further undermining the relevancy of the requested information to Plaintiffs’ is the fact that
Plaintiffs’ assertions suggest that they deem compounded pentobarbital as itself being unsafe and unconstitutional. In fact, Plaintiffs seek an injunction
against the use of compounded pentobarbital in executions, prompting one to further wonder what Plaintiffs would gain if we required Georgia to reveal its
source, and thereby renounce its own promise of confidentiality. See discussion supra at 22–26.
Yet, while it is unlikely that Plaintiffs would gain
any information helpful in pursuing its claims challenging Mississippi’s death penalty protocol should
the subpoena be enforced, it is clear what the GDC
would lose: its source for compounded pentobarbital.
Thus, because the interests served by quashing the
subpoena clearly and greatly outweigh the interests

41a
served by enforcing it, we conclude that enforcement
would unduly burden the GDC and therefore Rule
45(d)(3)(A)(iv) requires that the subpoena be quashed.
CONCLUSION
For all of the above reasons, we AFFIRM the district court’s order granting the GDC’s motion to
quash.

42a
APPENDIX B
[PUBLISH]

IN THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
[filed November 19, 2018]
No. 17-12948
Non-Argument Calendar
_______________________

D.C. Docket No. 1:16-cv-02582-RWS
_______________________

RICHARD JORDAN,
RICKY CHASE,
Plaintiffs-Appellants,
versus
COMMISSIONER, MISSISSIPPI DEPARTMENT
OF CORRECTIONS,
Defendant,
GEORGIA DEPARTMENT OF CORRECTIONS,
Movant-Appellee.
_______________________

Appeal from the United States District Court
for the Northern District of Georgia
_______________________

(January 10, 2020)

_______________________

Before TJOFLAT, WILLIAM PRYOR, and JULIE
CARNES, Circuit Judges.
JULIE CARNES, Circuit Judge:

43a
Plaintiffs Richard Jordan and Ricky Chase, Mississippi death row inmates, served the Georgia Department of Corrections (“GDC”) with a subpoena directing the GDC to testify at a Rule 30(b)(6) deposition
and to produce documents concerning Georgia’s lethal
injection protocol. Plaintiffs argued that the testimony and documents were necessary to support their
42 U.S.C. § 1983 claims pending in the Southern District of Mississippi challenging the legality of Mississippi’s lethal injection protocol. The GDC filed a motion to quash in the Northern District of Georgia,
where compliance with the subpoena was required.
Accepting the recommendation of a Magistrate Judge,
the district court granted the motion to quash. Plaintiffs appeal, arguing that the district court did not apply the correct standard of review to the Magistrate
Judge’s ruling, and also that the motion to quash
should have been denied on the merits. After careful
review, we affirm.
BACKGROUND
This appeal is an offshoot of a § 1983 action filed
by Plaintiffs in the Southern District of Mississippi.
Plaintiffs are Mississippi death row inmates who have
filed a § 1983 complaint in the Southern District of
Mississippi in which they challenge the constitutionality of Mississippi’s lethal injection protocol. Mississippi’s protocol recently was changed from a single injection procedure using only sodium pentothal or pentobarbital to a three-drug procedure that requires the
serial injection of: (1) either compounded pentobarbital or midazolam (a sedative/anesthetic), (2) vecuronium bromide (a paralytic), and (3) potassium chloride (which stops the heart). According to Plaintiffs,
there is a substantial risk that neither compounded

44a
pentobarbital nor midazolam—the first drug in the series—will sufficiently anesthetize the condemned inmate. Consequently, Plaintiffs claim, an inmate who
is injected with either drug could remain conscious
and fully sensate and thus experience suffocation
when the second drug in the series—the paralytic
vecuronium bromide, which renders the inmate unable to breathe—is administered. Compounding this issue, Plaintiffs contend, vecuronium bromide prevents
all muscular movement and thus masks the pain that
potassium chloride—the third and final drug in the
series—is known to inflict in the absence of adequate
anesthesia. Plaintiffs argue that Mississippi’s threedrug lethal injection protocol thus creates an unacceptable risk of severe and unnecessary pain, in violation of the Eighth Amendment.
To prevail on their Eighth Amendment claims,
Plaintiffs must show that there is an alternative to
Mississippi’s three-drug protocol that is both “known
and available” and that significantly reduces the risk
of severe pain to the inmate. See Glossip v. Gross, 135
S. Ct. 2726, 2738 (2015). In an effort to meet that burden, Plaintiffs point to alternative lethal injection protocols used by other states, including Georgia. The
GDC has used a one-drug protocol that requires a single injection of compounded pentobarbital in its most
recent executions. Plaintiffs argue that a single injection of pentobarbital is thus a known and available alternative to Mississippi’s three-drug protocol, which
(theoretically, at least) reduces the risk of pain to the
condemned inmate.

45a
The Mississippi defendants1 dispute this point,
and they have asserted at various times in the underlying § 1983 action that pentobarbital, even in its compounded form, is unavailable for their use in executions. For example, in their answer to Plaintiffs’ complaint, the Mississippi defendants denied that a single- drug procedure using pentobarbital was a feasible
alternative to Mississippi’s three-drug protocol. They
subsequently filed a motion to dismiss Plaintiffs’ §
1983 action under Glossip, citing the sworn testimony
of Mississippi Department of Corrections officials
stating that they had tried but been unable to find a
source of pentobarbital for use in executions. In a
hearing on the motion, the attorney for the Mississippi defendants emphasized that state corrections officials had not been able to obtain pentobarbital for
use in executions in spite of a diligent search.
Plaintiffs acknowledge that pentobarbital has become difficult to acquire, at least in part because
death penalty opponents have lobbied drug manufacturers to make it unavailable for use in American executions. But Plaintiffs have argued in their § 1983
action that it must be possible to obtain pentobarbital
by some means, because states like Georgia continue
to use it. Seeking evidence to shore up that argument,
Plaintiffs served the GDC with the non-party subpoena that is at issue in this appeal. The subpoena directs the GDC to appear at a Rule 30(b)(6) deposition
and to produce documents concerning the feasibility

The Mississippi defendants include the Commissioner of the
Mississippi Department of Corrections and various other state
officials who are involved in implementing executions in Mississippi and who have been named in Plaintiffs’ § 1983 complaint.
1

46a
of a one-drug lethal injection protocol using pentobarbital, including specific details about the GDC’s
source and manner of acquiring pentobarbital.
The GDC filed a motion to quash the subpoena in
the Northern District of Georgia, arguing that the information sought in the subpoena was irrelevant to
the claims asserted in the underlying § 1983 litigation
and, in any event, protected from disclosure by Georgia’s Lethal Injection Secrecy Act and other privileges.
The motion was referred to a Magistrate Judge, who
rejected the GDC’s relevancy argument but nevertheless granted the motion to quash pursuant to the Lethal Injection Secrecy Act. The Lethal Injection Secrecy Act precludes the disclosure of the “identifying
information” of any person or entity that participates
in a Georgia execution or that supplies the drugs used
by the state in executions. See O.C.G.A. § 42-5-36(d).
The Magistrate Judge concluded that this Court’s “expansive reading” of the Act barred the disclosure of
the information sought in the subpoena that Plaintiffs
had served on the GDC.
Plaintiffs filed objections to the Magistrate Judge’s
ruling, in which they argued that the information
sought by the subpoena was not privileged, and that
the Magistrate Judge had erroneously failed to require the GDC to produce a privilege log specifying in
detail how the Lethal Injection Secrecy Act applies to
each requested document. After reviewing those objections, the district court accepted and adopted the Magistrate Judge’s decision to quash the subpoena. First,
the district court determined that the “clearly erroneous” or “contrary to law” standard applied to its review of the Magistrate Judge’s ruling because the motion to quash was a non-dispositive pretrial matter.

47a
Then, emphasizing that this Court had held numerous times that the Lethal Injection Secrecy Act precluded disclosure of similar information to a condemned inmate, the district court concluded that the
Magistrate Judge’s ruling was neither clearly erroneous nor contrary to law.
Plaintiffs appeal, arguing that (1) the district court
applied the wrong standard of review to the Magistrate Judge’s ruling and (2) the motion to quash
should have been denied on the merits.
STANDARD OF REVIEW
We review the district court’s ruling on the GDC’s
motion to quash “only for an abuse of discretion.” In re
Hubbard, 803 F.3d 1298, 1307 (11th Cir. 2015) (citing
Ariel v. Jones, 693 F.2d 1058, 1060 (11th Cir. 1982)).
Thus, we will leave the district court’s ruling on the
motion “undisturbed” unless the district court has
“made a clear error of judgment, or has applied the
wrong legal standard.” Ameritas Variable Life Ins. Co.
v. Roach, 411 F.3d 1328, 1330 (11th Cir. 2005); see
also SunAmerica Corp. v. Sun Life Assurance Co. of
Canada, 77 F.3d 1325, 1333 (11th Cir. 1996) (noting
that an abuse of discretion occurs when the district
court makes “a clear error of judgment” or applies “an
incorrect legal standard” (internal quotation marks
omitted)).
DISCUSSION
I. The district court applied the correct standard of review to the Magistrate Judge’s ruling on the motion to quash.
As discussed, the district court reviewed the Magistrate Judge’s ruling on the motion to quash under
the “clearly erroneous” or “contrary to law” standard.

48a
According to Plaintiffs, the district court should have
reviewed the Magistrate Judge’s ruling de novo, and
its failure to do so requires reversal under the Federal
Magistrate’s Act, 28 U.S.C. § 636, and Rule 72 of the
Federal Rules of Civil Procedure.
The standard of review the district court was required to apply depends on whether we characterize
the GDC’s motion to quash as a dispositive or a nondispositive matter. See Fed. R. Civ. P. 72. Under the
Federal Magistrate’s Act, a district court “may designate a magistrate judge to hear and determine any
pretrial matter pending before the court.” 28 U.S.C.
§ 636(b)(1)(A). If the matter is non-dispositive, the district court reviews the magistrate judge’s ruling under
the “clearly erroneous or contrary to law” standard.
Id.; see also Fed. R. Civ. P. 72(a) (“When a pretrial
matter not dispositive of a party’s claim or defense is
referred to a magistrate judge to hear and decide . . . .
[t]he district judge in the case must consider timely
objections and modify or set aside any part of the order that is clearly erroneous or is contrary to law.”).
But if the matter is dispositive, the district court must
review any objected-to portion of the magistrate
judge’s ruling de novo. 28 U.S.C. § 636(b)(1).
The Federal Magistrate’s Act lists several examples of motions that qualify as dispositive matters, including motions for injunctive relief, for judgment on
the pleadings, for summary judgment, to dismiss or
quash an indictment, to suppress evidence in a criminal case, to dismiss or permit maintenance of a class
action, to dismiss for failure to state a claim, and to
involuntarily dismiss an action. Id. As evidenced by
the motions included in this list, a routine pretrial discovery motion, such as the motion to quash at issue in

49a
this case, generally would not be considered a dispositive matter. See In re Comm’r’s Subpoenas, 325 F.3d
1287, 1292 n.2 (11th Cir. 2003) (“The district court
correctly observed that the standard of review by
which it reconsidered the magistrate judge’s [order
quashing subpoenas] is ‘clearly erroneous or contrary
to law.’” (citing 28 U.S.C. § 636(b)(1)(A))), overruled on
other grounds by Intel Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241 (2004); Maynard v. Bd. of Regents of the Div. of Univ. of the Fla. Dep’t of Ed., 342
F.3d 1281, 1286 (11th Cir. 2003) (characterizing a
magistrate judge’s discovery rulings as non-dispositive orders, and holding that the plaintiff’s failure to
object to the rulings in the district court waived his
right to appeal them).
Indeed, Plaintiffs do not dispute that if the GDC’s
motion to quash had been filed in the Southern District of Mississippi, where the underlying § 1983 action is pending, the motion would be considered nondispositive and a magistrate judge’s ruling on it would
be reviewed under the clearly erroneous or contrary to
law standard. Yet, Plaintiffs argue that the Magistrate Judge’s ruling on the motion to quash filed in
this particular case should be considered dispositive—
and thus reviewed under the de novo standard—because it resolves and finally disposes of the litigation
between Plaintiffs and the GDC that is pending in the
Northern District of Georgia.
We are not persuaded by this argument. The
GDC’s motion to quash required separate litigation
between Plaintiffs and the GDC in the Northern District of Georgia because the place for compliance with
the subpoena, and thus the proper venue for filing a
motion to quash, was in the Northern District of Geor-

50a
gia. See Fed. R. Civ. P. 45(c), (d)(3). And the Magistrate Judge’s ruling on the motion resulted in a final
disposition of the issues raised in the motion, permitting Plaintiffs to appeal the ruling to this Court. See
Ariel, 693 F.2d at 1059 (noting that a litigant would
have “no other means of effectively obtaining review”
of such a ruling if it were not considered final for purposes of appeal). But that does not change the essential nature of the motion to quash from a routine pretrial discovery motion, which is ancillary to the § 1983
litigation pending in the Southern District of Mississippi, to a dispositive matter.
In short, we find no reason to treat the Magistrate
Judge’s ruling on the GDC’s motion to quash any differently than we would treat a similar pretrial discovery motion that was filed in the Southern District of
Mississippi, where the underlying § 1983 action is
pending. As such, we conclude that the district court
correctly applied the “clearly erroneous or contrary to
law” standard of review to the Magistrate Judge’s ruling on the motion to quash. See In re Comm’r’s Subpoenas, 325 F.3d at 1292 n.2.
II. The district court did not abuse its discretion by accepting and adopting the Magistrate Judge’s ruling and granting the GDC’s
motion to quash.
Having concluded that the district court applied
the correct standard of review, the only question for
this Court is whether the district court otherwise
abused its discretion—either by relying on an error of
law or committing a clear error of judgment—in affirming the Magistrate Judge’s ruling granting the
GDC’s motion to quash. See Ameritas Variable Life
Ins., 411 F.3d at 1330. Clearly, it did not.

51a
As discussed, the Magistrate Judge concluded that
disclosure of the information sought in the GDC subpoena was precluded by Georgia’s Lethal Injection Secrecy Act. The Lethal Injection Secrecy Act states
that:
The identifying information of any person or
entity who participates in or administers
the execution of a death sentence and the
identifying information of any person or entity that manufactures, supplies, compounds, or prescribes the drugs, medical
supplies, or medical equipment utilized in
the execution of a death sentence shall be
confidential and shall not be subject to disclosure . . . under judicial process.
O.C.G.A. § 42-5-36(d)(2). The Act defines “identifying
information” to include “any records or information
that reveals a name, residential or business address,
residential or business telephone number, day and
month of birth, social security number, or professional
qualifications” of a person or entity that “manufactures, supplies, [or] compounds” lethal injection
drugs. Id. § 42-5-36(d)(1). It classifies such information as “a confidential state secret.” Id. § 42-536(d)(2).
Georgia passed the Lethal Injection Secrecy Act in
response to the concerted effort by death penalty opponents to make lethal injection drugs unavailable for
use in American executions. See Owens v. Hill, 295
Ga. 302, 317 (2014) (“[W]ithout the confidentiality offered to execution participants by the statute, as the
record and our case law show, there is a significant
risk that persons and entities necessary to the execution would become unwilling to participate.”); see also

52a
Glossip, 135 S. Ct. at 2733–34 (describing the advocacy of death penalty opponents that led to the removal of sodium thiopental from the market and a
shortage of pentobarbital for use in American executions). As the Supreme Court explained in Glossip,
use of the barbiturates sodium thiopental and/or pentobarbital as the first (and frequently only) drug in a
lethal injection protocol “enabled [s]tates to carry out
the death penalty in a quick and painless fashion” for
several years. Glossip, 135 S. Ct. at 2733. “But a practical obstacle soon emerged, as anti-death-penalty advocates pressured pharmaceutical companies to refuse to supply the drugs used to carry out death sentences.” Id. The advocacy ultimately had its intended
effect: drug manufacturers were persuaded to withdraw sodium thiopental from the market entirely and
to stop selling pentobarbital for use in executions. Id.
Thereafter, it became difficult—if not impossible—for
states to acquire either drug and thus increasingly
necessary to substitute midazolam as the first drug in
a three-drug series, as Mississippi has done in the protocol challenged by Plaintiffs in their underlying §
1983 action. Id. at 2734 (“Unable to acquire either sodium thiopental or pentobarbital, some States have
turned to midazolam[.]”).
In spite of the developments described above,
Georgia has been able to secure a source of pentobarbital in its compounded form for use in executions. See
Gissendaner v. Comm’r, Ga. Dep’t of Corr., 779 F.3d
1275, 1278 (11th Cir. 2015) (“Gissendaner I”) (noting
that Georgia’s most recent lethal injection protocol
calls for “an initial 2.5 gram dose of pentobarbital” followed by “a second 2.5 gram dose of pentobarbital”).
But Georgia’s supply of pentobarbital—even in its
compounded form—would be jeopardized were it not

53a
for the confidentiality provided by the Lethal Injection
Secrecy Act. See Owens, 295 Ga. at 317 (citing a case
in which a compounding pharmacy “was demanding
the return of the execution drugs that it had supplied
to the State of Texas because it was being harassed”
(internal quotation marks omitted)); see also Gissendaner v. Comm’r, Ga. Dep’t of Corr., 803 F.3d 565, 569
(11th Cir. 2015) (“Gissendaner II”) (“To require . . .
that Georgia open up about its source of pentobarbital
would result in the drug becoming completely unavailable for use in executions, even though its use does not
violate the Eighth Amendment.”), cert. denied sub
nom., Gissendaner v. Bryson, 136 S. Ct. 26 (2015).
This Court has had numerous opportunities to consider the legality and the implications of the Lethal
Injection Secrecy Act. See Gissendaner II; Wellons v.
Comm’r, Ga. Dep’t of Corr., 754 F.3d 1260 (11th Cir.
2014), cert. denied sub nom., Wellons v. Owens, 134 S.
Ct. 2838 (2014); Terrell v. Bryson, 807 F.3d 1276 (11th
Cir. 2015); Jones v. Comm’r, Ga. Dep’t of Corr., 811
F.3d 1288 (11th Cir. 2016). In these cases, the Court
has upheld the constitutionality of the Lethal Injection Secrecy Act, recognized that the confidentiality
provided by the Act is necessary to protect Georgia’s
source of pentobarbital for use in executions, and concluded that a condemned inmate has no right to the
disclosure of information made confidential by the
Act, including information that would identify the
supplier or source of the drugs to be used in the inmate’s execution. See Jones, 811 F.3d at 1292–93 (reviewing this Court’s case law applying the Lethal Injection Secrecy Act).
By its plain terms, the Lethal Injection Secrecy Act
bars disclosure of the vast majority of information
sought in the subpoena Plaintiffs served on the GDC.

54a
For example, the subpoena demands that the GDC
produce documents concerning: the GDC’s attempt to
secure or purchase pentobarbital for use in executions, drug labels and package inserts for any drug
purchased by the GDC for use in lethal injection executions, (3) the process by which the GDC decided to
use a single lethal dose of barbiturate in its lethal injection protocol, including communications between
any GDC officer and any other person, corporation, or
entity related to that process, (4) the GDC’s use of
compounded pentobarbital in executions, including
communications between the GDC and any other person or entity (including pharmaceutical companies,
pharmacies, and other corrections departments) related to the compounding of pentobarbital, (5) any
GDC employee trainings on conducting lethal injections, including the names and qualifications of the
person who taught at the training, and (6) communications between the GDC and any other corrections
department or attorney general’s office related to the
selection, purchase, or exchange of drugs for use in lethal injections. Responding to any of these demands
would require disclosure of the identity of people and
entities that manufacture or supply drugs used in
Georgia executions, and that otherwise participate in
Georgia executions, in violation of the Lethal Injection
Secrecy Act as interpreted by this Court in the numerous cases cited above.
Plaintiffs argue that their case is distinguishable
from this Court’s precedent applying the Lethal Injection Secrecy Act because none of the Court’s prior
cases involved a condemned inmate’s attempt to secure information via subpoena. In our view, this distinction is immaterial. The essential principle under-

55a
lying this Court’s precedent is that the Lethal Injection Secrecy Act is a legitimate and constitutional attempt by the state of Georgia to maintain the confidentiality of the people and entities—including drug
manufacturers and suppliers—that participate in executions in Georgia. See Jones, 811 F.3d at 1292–93
(reaffirming this Court’s precedent establishing that
a condemned inmate has no right to require disclosure
of information protected by the Lethal Injection Secrecy Act). In spite of the slightly different context in
which this case arises, that principle applies with
equal force here.
Plaintiffs also argue that the GDC subpoena included some information that was not covered by the
Lethal Injection Secrecy Act, and that the district
court thus abused its discretion by ordering the subpoena to be quashed in its entirety. According to
Plaintiffs, the district court should at the very least
have required the GDC to submit a privilege log. See
Fed. R. Civ. P. 45(e)(2)(A)(ii) (requiring a person withholding subpoenaed information under a claim of privilege to “describe the nature of withheld documents
[or] communications”).
Again, we are unpersuaded. The purpose of requiring a privilege log is to “enable the parties to assess
[a] claim” of privilege. Id. Here, it is apparent from the
face of the subpoena that the vast majority of the information sought in the subpoena falls within the
plain language of the Lethal Injection Secrecy Act.
More importantly, the information with the most relevance to Plaintiffs’ § 1983 claims— that is, information identifying Georgia’s source of pentobarbital,
which could show that pentobarbital is a known and
available alternative to Mississippi’s three- drug pro-

56a
tocol, as required for Plaintiffs to prevail under Glossip—is directly barred from disclosure by the Act. The
remainder of the information sought is either readily
available to the public (for example, Georgia’s lethal
injection protocols from 2010 to the present) or of limited relevance to Plaintiffs’ burden under Glossip to
point to a known and available alternative to Mississippi’s three-drug protocol (for example, documents
related to the process by which Georgia determined
that it would or would not use midazolam in its executions). Thus, the district court did not abuse its discretion by quashing the subpoena in its entirety, and
without first requiring the GDC to submit a privilege
log.
CONCLUSION
For the foregoing reasons, we conclude that the
district court did not apply an incorrect legal standard
or commit a clear error of judgment in accepting and
adopting the Magistrate Judge’s ruling and granting
the GDC’s motion to quash. Accordingly, we AFFIRM
the district court’s order granting the GDC’s motion to
quash.

57a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION
[filed January 17, 2017]
RICHARD JORDAN, et al.,
Plaintiffs,
v.
MARSHALL L. FISHER,
Defendant.

:
:
:
:
:
:
:
:
:

Civil Action No.
1:16-cv-2582-RWS

ORDER
This matter is before the Court on Plaintiffs Objection to the Order entered by Magistrate Judge J. Clay
Fuller [Doc. No. 15].
On October 20, 2016, Judge Fuller entered an order granting Movant’s Motion to Quash [Doc. No. 15].
This order resolved a discovery issue related to subpoena that Plaintiffs/Respondents served upon nonparty Georgia Department of Corrections for the underlying civil case in the Southern District of Mississippi, Case No. 3:15-CV-295. In their objections,
Plaintiffs argue that the Motion to Quash was a dispositive matter and that this Court should therefore
conduct a de novo review of Judge Fuller’s order.
The Court disagrees. Pursuant to Federal Rule of
Civil Procedure 72, pretrial matters that are not dispositive of a party’s claim or defense can be referred

58a
to a Magistrate Judge to hear and decide. Non-dispositive pretrial matters can be anything except motions
for injunctive relief, for judgment on the pleadings, for
summary judgment, to dismiss or quash an indictment, to suppress evidence in a criminal case, to dismiss or to permit maintenance of a class action, to dismiss for failure to state a claim, and to involuntarily
close an action. 28 U.S.C. § 636(b); Local Rule 72.1.
The Motion to Quash [Doc. No. l] does not fall within
any of these excluded matters and is simply a pre-trial
discovery matter filed in response to a subpoena that
was directed to Movant, a non-party to another civil
action. Thus, the Court will treat this as a non-dispositive order and affirm unless it is clearly erroneous or
is contrary to the law.
Judge Fuller’s order [Doc. No. 15] is neither clearly
erroneous nor contrary to the law. Judge Fuller found
that the deposition topics and the document requests
were relevant to the underlying action but were otherwise prohibited from discovery given the Eleventh
Circuit’s expansive view of Georgia’s Lethal Injection
Secrecy Act, O.C.G.A. § 42-5-36. The Eleventh Circuit
has, on at least five occasions, prevented a capital offender from obtaining information protected under
the Act. It was not clearly erroneous or contrary to the
law to quash the subpoena in its entirety due to this
finding. Plaintiff’s objections [Doc. No. 16] are
OVERRULED, and Judge Fuller’s order [Doc. No. 15]
is AFFIRMED.
SO ORDERED, this 17th day of January, 2017.
/s/ Richard W. Story
Richard W. Story
UNITED STATES
DISTRICT JUDGE

59a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION
[filed October 20, 2016]
GEORGIA DEPARTMENT :
OF CORRECTIONS
:
:
Movant,
:
:
v.
: No. 1:16-cv-2582-RWS
:
RICHARD JORDAN, et al., :
:
Respondents.
:
ORDER
The Georgia Department of Corrections (GDC)
moves to quash a subpoena directed towards it seeking a deposition and documents related to Georgia executions. (See Doc. 1). Respondents are challenging
Mississippi’s execution protocol in an action1 pending
in the Southern District of Mississippi. Respondents
have filed a response in opposition to the motion (Doc.
9) and have submitted supplemental authority for the
Court’s consideration. (Doc. 12). GDC filed a reply in
support of its motion. (Doc. 11). Through counsel, the
parties appeared at a hearing in Atlanta on September 9, 2016. (See Doc. 14, Hr’g Tr. filed 09/26/2016).
With briefing complete, and the transcript from the
hearing available, this matter is ripe for disposition.

The style of the underlying case is Jordan, et al. v. Fisher, et al.,
3:15-cv-295HTW-LRA (S.D. Miss.).
1

60a
BACKGROUND
Respondents Jordan and Chase are Mississippi inmates sentenced to death. According to Jordan and
Chase, Mississippi plans to execute them using a
three-drug protocol consisting of midazolam, vecuronium bromide (a chemical paralytic agent), and potassium chloride. (Doc. 9 at 1). In seeking to show that
Mississippi’s protocol violates the Eighth Amendment, Jordan and Chase wish to draw that court’s attention to other states (like Georgia) which have abandoned a three-drug protocol in favor of using pentobarbital alone. (Doc. 9 at 1). In the underlying case, it
appears Mississippi is likely to assert that a singledrug execution is not a feasible alternative to its
three-drug protocol and that pentobarbital is not
available for correction officials to purchase for use in
executions.
GDC has switched to a single-drug protocol, so Jordan and Chase wish to secure discovery from GDC
concerning (a) whether pentobarbital is available, (b)
the factors which went into GDC’s decision to switch
from a three-drug protocol to a single-drug protocol,
and (c) whether a single-drug protocol is a feasible alternative method of execution.
DISCUSSION
GDC offers a variety of reasons in resisting the discovery. In particular, it contends that the subpoena is
overbroad and seeks irrelevant information, that the
information Jordan and Chase seek is privileged under the Georgia Lethal Injection Secrecy Act, the

61a
work-product doctrine, and/or the deliberative process
privilege, that the subpoena is unduly burdensome.2

A. Is The Information Relevant?
GDC correctly asserts that a subpoena may be
quashed if it fails to allow a reasonable time to comply,
seeks privileged or other protected matter, or if it
places an undue burden on the responding party.
(Doc. 1 at 3 (citing Fed. R. Civ. P. 45(d)(3)(A))). GDC
asserts that the information sought is not relevant to
the claims and defenses in the underlying action, and
that therefore it is due to be quashed in its entirety.
Jordan and Chase seek information concerning
Georgia’s single-drug execution protocol and the reasons why Georgia switched from a three-drug protocol
to a single-drug protocol. In addition, Jordan and
Chase seek information concerning the availability of
pentobarbital for use in a single-drug protocol. In the
underlying action, to succeed on their claims challenging Mississippi’s three-drug protocol, Jordan and
Chase must show the existence of a feasible alternative. The requested information is relevant to the
claims asserted in the underlying action because it
goes to the heart of what Jordan and Chase must
prove to successfully prosecute their cases. GDC’s arguments concerning relevancy are therefore insufficient to justify quashing the subpoena.

In its opening brief, GDC also stated that the deposition sought
here was improper because Jordan and Chase did not tender witness fees. (Doc. 1 at 2). In light of the disposition of this matter
based on Georgia’s Lethal Injection Secrecy Act, this point is
moot.
2

62a

B. Is The Information Privileged Or Otherwise
Protected?
Additionally, GDC contends that the subpoena
seeks information protected by one or more privileges.
Primarily, it asserts that the information is protected
by Georgia’s Lethal Injection Secrecy Act. (Doc. 1 at
6). The act provides:
The identifying information of any person or
entity who participates in or administers
the execution of a death sentence and the
identifying information of any person or entity that manufactures, supplies, compounds, or prescribes the drugs, medical
supplies, or medical equipment utilized in
the execution of a death sentence shall be
confidential and shall not be subject to disclosure under Article 4 of Chapter 18 of Title
50 or under judicial process. Such information shall be classified as a confidential
state secret.
O.C.G.A. § 42-5-36. As GDC points out, since the enactment of Georgia’s Lethal Injection Secrecy Act, the
Eleventh Circuit has repeatedly relied upon it in refusing to require disclosure of information covered by
that statute.
In Wellons v. Commissioner, Georgia Department
of Corrections, the Eleventh Circuit first rejected a
challenge to the act, and concluded:
Neither the Fifth, Fourteenth or First
Amendments afford Wellons the broad right
“to know where, how, and by whom the lethal injection drugs will be manufactured,”

63a
as well as “the qualifications of the person
or persons who will place the catheters.”
Wellons, 754 F.3d 1260, 1267 (11th Cir. 2014) (quoting
Lewis v. Casey, 518 U.S. 343, 354 (1996)). Wellons has
been relied upon to bar subsequent efforts to secure
information about the drugs used for lethal injections
in Georgia. For example, in Gissendaner v. Commissioner, Georgia Department of Corrections, 779 F. 3d
1275 (11th Cir. 2015) (Gissendaner I), a prisoner challenged Georgia’s “switch from FDA-approved pentobarbital to compounded pentobarbital.” Gissendaner
I, 779 F.3d at 1278. The Court relied on Wellons in rejecting a claim that challenged, among other things,
“the State’s refusal to reveal certain details about its
execution process.” Id.
The act received attention again in Gissendaner v.
Commissioner, Georgia Department of Corrections,
803 F.3d 565 (11th Cir. 2105) (Gissendaner II), in
which a challenge was made to “the way Georgia obtains, stores, and uses pentobarbital.” Gissendaner II,
803 F.3d 565 at 569. In rejecting that challenge, the
Eleventh Circuit stated
it is noteworthy that the lethal injection
drug that Georgia uses in its single-drug
protocol is pentobarbital, which, the Supreme Court has recognized, opponents to
capital punishment have made largely unavailable through open channels. To require,
as Gissendaner is seeking, that Georgia
open up about its source of pentobarbital
would result in the drug becoming completely unavailable for use in executions.
Gissendaner II, 803 F.3d at 569.

64a
Subsequent cases in the Eleventh Circuit have
consistently rejected challenges to Georgia’s Lethal
Injection Secrecy Act by Georgia prisoners. In Jones v.
Commissioner, Georgia Department of Corrections,
811 F.3d 1288, the Eleventh Circuit again rejected a
claim that the secrecy act deprived a prisoner of the
information needed to challenge the state’s lethal injection protocol. Jones, 811 F.3d at 1291 (11th Cir.
2016). Essentially, the court concluded that even
though the act “protects information about the specific
drug sources Georgia actually is using and identifying
information about any person or entity who participates in the execution of a death sentence[, i]t does not
deprive Jones of the ability to locate an alternative
source.” Jones, 811 F.3d at 1296.
Simply put, the Eleventh Circuit has uniformly
given Georgia’s Lethal Injection Secrecy Act an expansive reading, essentially viewing it as creating a total
ban on the production of information concerning Georgia’s choices in connection with its lethal injection protocol. This result has its detractors. Specifically,
Judge Wilson has decried “the disturbing circularity
problem” created by Georgia’s secrecy law. Wellons,
754 F.3d at 1267 (Wilson, J., concurring in judgment).
As he put it:
Possibly due to his lack of information
about the compound pentobarbital that
will be used and the expertise of the people
who will administer his execution,
Wellons has not shown such a risk. Indeed,
how could he when the state has passed a
law prohibiting him from learning about
the compound it plans to use to execute
him?

65a
Id. (Wilson, J., concurring in judgment). Others have
similar concerns. See Terrell v. Bryson, 807 F.3d 1276,
1281 (Martin, J., concurring) (“the State of Georgia
has made critical aspects of its execution a ‘confidential state secret.’ Georgia’s secrecy rules being what
they are, I do not see how Mr. Terrell could ever get
the information necessary to state an Eighth Amendment claim about lethal injection.”). Nonetheless,
where Georgia’s own3 death row prisoners have been
flatly denied access to information covered by Georgia’s Lethal Injection Secrecy Act, it similarly bars
Jordan and Chase’s efforts to secure the same types of
information via subpoena for use in their Mississippi
case.
Jordan and Chase point to their successful efforts
to obtain similar information from Missouri in an effort to justify denying the motion to quash. In response to a subpoena in Missouri, the Missouri Department of Corrections filed a motion to quash, which
was denied, and then sought mandamus, which was
denied by the Eighth Circuit. See In re Missouri Dep’t.
of Corr., 2016 U.S. APP. LEXIS 16250 at *19, No. 163072, (8th Cir. Sept. 2, 2016) (filed here as Doc. 12-1).
At issue in the Missouri litigation is a lethal injection
secrecy statute that is fundamentally different than
Georgia’s act. In particular, as the Missouri district
The Supreme Court of Georgia has similarly rejected efforts to
identify the suppliers of its lethal injection drugs, finding that
this information is confidential under the Lethal Injection Secrecy Act. See Owens v. Hill, 295 Ga. 302, 317 (2014) (concluding
that even though “disclosing the compounding pharmacy that
produces lethal injection drugs might enhance the ability of Hill
and the general public to more fully satisfy themselves that
Georgia’s execution process is likely humane[, ] Georgia’s execution process is likely made more timely and orderly by the execution-participant confidentiality statute[.]”)
3

66a
court concluded, Missouri’s secrecy statute extended
only to the “execution team” and this definition did not
cover suppliers of the drugs. See Missouri Dep’t. of
Corrections v. Jordan, Case No. 16-MC-09005-SRB,
(W.D. Mo., July, 14 2016) (filed as Doc. 10-1 at p. 1113). In contrast, O.C.G.A. § 42-5-36 extends protection
to “any person or entity that manufactures, supplies,
compounds, or prescribes the drugs, medical supplies,
or medical equipment utilized in the execution of a
death sentence.” O.C.G.A. § 42-5-36. And, just as importantly, unlike Georgia’s secrecy act which the Eleventh Circuit has repeatedly applied, apparently the
Eighth Circuit had not previously given Missouri’s lethal injection secrecy statute such an expansive reading.
Finally, Jordan and Chase try to distinguish their
action from the numerous challenges rejected by the
Eleventh Circuit by emphasizing their method-of-execution claims have already survived a motion to dismiss. Yet none of the Eleventh Circuit cases created a
safety valve whereby the act would yield in the face of
a case surviving a motion to dismiss. Ultimately, this
procedural difference does not justify the relief which
they seek. The Eleventh Circuit’s view of Georgia’s Lethal Injection Secrecy Act firmly forecloses Jordan
and Chase’s efforts to secure the information sought
by the subpoena, and therefore the motion to quash
(Doc. 1) is due to be GRANTED.
SO ORDERED, this 20th day of October, 2016.
/s/ J. Clay Fuller
J. CLAY FULLER
United States Magistrate Judge

